PROCESSING PETITIONS TO IMPORT
  NON-CANADIAN GRAY MARKET
          VEHICLES
 National Highway Traffic Safety Administration


         Report Number: MH-2005-052
        Date Issued: February 28, 2005
           U.S. Department of
                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Processing Petitions to Import                     Date:    February 28, 2005
           Non-Canadian Gray Market Vehicles
           Report Number: MH-2005-052

  From:    Kurt Hyde                                               Reply to
                                                                   Attn. of:   JA-40
           Deputy Assistant Inspector General
            for Surface and Maritime Programs
    To:    National Highway Traffic Safety Administrator


           This report presents the results of our audit of the National Highway Traffic Safety
           Administration’s (NHTSA) processing of petitions to import “gray market”
           vehicles from countries other than Canada. Gray market vehicles are vehicles
           (other than those manufactured for sale in Canada) that were not originally
           manufactured to comply with applicable Federal motor vehicle safety standards
           and must be modified to conform to those standards following their importation
           into the United States. The audit was conducted at the request of the NHTSA
           Administrator following a complaint from a registered importer of motor vehicles
           about a delay in the processing of petitions by the Office of Vehicle Safety
           Compliance. Our objectives were to (1) evaluate NHTSA’s timeliness in
           approving petitions for permission to import vehicles and (2) determine the
           reasons importers may experience processing delays. Our scope and methodology
           are discussed in Exhibit A.

           BACKGROUND
           Motorists import gray market vehicles for a number of reasons: (a) they may have
           purchased a vehicle while working overseas or serving in the military; (b) they
           may be a collector or enthusiast who wants a make or model that the manufacturer
           has chosen not to distribute in the United States; or (c) they may be trying to save
           money, as a gray market vehicle can oftentimes cost as much as 40 percent less
           than a similar vehicle sold in the United States. Even after making costly
           modifications to meet safety standards, a motorist may still save money buying a
                                                                                                             2


gray market vehicle. During calendar years (CY) 2001 through 2003, 509,772
gray market vehicles were imported into the United States. Of those, 4,041
vehicles, or less than 1 percent, were imported from countries other than Canada.
Hundreds of vehicles of the same make, model, and model year can be imported
under a single approved petition’s eligibility number, and importations of some of
those 4,041 vehicles were based on petitions approved before CY 2001. These
petitions and the resulting eligibility numbers are specific to the vehicle, rather
than to the petitioner. Any registered importer can import a vehicle determined
eligible for importation, even if the petition was filed by a different registered
importer.

The table below provides details of the petition and conformity package process.

                     Table. Steps for Importing ‘Gray Market’ Vehicles

 Accepting Petitions
 1.   If a vehicle has not previously been determined eligible for importation, the registered importer files
      a petition with NHTSA. If the vehicle is of a make, model, and model year that has already been
      approved for import, the registered importer moves to step No. 5.

 2.   NHTSA conducts an administrative review and accepts the petition for processing or notifies the
      registered importer that the petition lacks specific information for processing. NHTSA holds an
      incomplete petition in suspense until the registered importer provides the required information to
      NHTSA. If the required information is not submitted within the time specified by NHTSA, the
      agency may dismiss the petition as incomplete and inform the registered importer.

 Publishing Petitions
 3.   After accepting the petition for processing, NHTSA publishes a Federal Register notice soliciting
      public comment on the petition and the modifications necessary to bring the vehicle into compliance
      with applicable safety standards. The comment period normally runs for 30 days.

 Issuing Eligibility Numbers
 4.   After resolving comments and deciding that the vehicle can be modified to meet safety standards,
      NHTSA grants the petition by assigning an eligibility number for the vehicle make, model, and
      model year and notifies the registered importer. The registered importer then has 120 days to make
      necessary vehicle modifications. At a later date, NHTSA will publish its decision in the Federal
      Register.

 Approving Conformity Packages
 5.   Registered importer gives NHTSA evidence that modifications have been completed and
      certification that the vehicle complies with safety standards (referred to as a “conformity package”).

 6.   NHTSA reviews the conformity package to ensure modifications are properly made and either
      issues a letter to the registered importer releasing the vehicle or instructs the registered importer to
      provide additional evidence that the vehicle has been properly modified to conform to applicable
      safety standards. (If after 30 calendar days NHTSA has not notified the registered importer that the
      conformity package is deficient, the registered importer may release the vehicle to the customer.)
                                                                                3



During CYs 2001 through 2003, 73 import eligibility petitions were approved. Of
the 73 petitions, 35 were for luxury vehicles, such as Audi, BMW, Ferrari, Jaguar,
Lamborghini, Mercedes Benz, and Porsche. Some of these vehicles, like the
Lamborghini Diablo, can sell for hundreds of thousands of dollars. Another 18 of
the 73 petitions were for non-luxury vehicles, such as Chevrolets and Fords. Of
the remainder, 6 were for Harley-Davidson motorcycles and 14 were for other
makes of motorcycles. (For a complete list of makes and models of vehicles
included in the 73 petitions, see Exhibit B.)

A motorist who buys a gray market vehicle must hire a registered importer to
shepherd the vehicle through two distinct phases of preparing the vehicle for U.S.
highways. The first is the petition process, which is needed to obtain regulatory
approval for modifying the vehicle to meet U.S. safety standards. The second
phase is the conformity process, which proves to NHTSA that the needed
modifications have been made.

Both NHTSA and registered importers have responsibility for ensuring that
petitions are processed in a timely manner. NHTSA reviews the petitions to
determine whether the vehicle can be modified to comply with the Federal vehicle
safety standards. NHTSA’s procedures indicate it should take from 90 to 120
calendar days from the time a petition is filed until an eligibility number is
assigned. Within 120 days after assignment of an eligibility number, registered
importers must submit to NHTSA a conformity package, which includes a
certification and evidence that the modifications have been made. A vehicle of the
same make, model, and model year of a previously approved vehicle can be
imported under the same eligibility number as the previously approved petition
and go directly to the conformity package process.

Our audit focused on the petition process, which was the source of business and
consumer complaints.      The conformity package process is largely the
responsibility of the importers, and NHTSA’s approvals of the conformity
packages have been expeditious.

RESULTS
The average processing times for petitions markedly improved since CY 2001,
although the number of petitions increased from 16 in CY 2001 to 28 in CY 2003.
As shown in Figure 1, the average processing time decreased from 249 days in CY
2001 to 147 days in CY 2003. However, these processing times significantly
exceeded NHTSA’s 90- to 120-calendar-day standard. NHTSA exceeded the 120-
day standard for 43, or 59 percent, of the 73 petitions process during this 3-year
period.
                                                                                                          4




                  Figure 1. Petition Volume and Average Processing Times
                                                                               35
            260
                               249
            240                                                                30
                                                   29




                                                                                    Number of Petitions
                                                                        28
            220

            200                                                                25
     Days




            180
                                                   169                         20
            160
                          16                                            147
            140
                                                                               15
            120

            100                                                                10
                         2001                   2002                2003

                                     Processing Time     Number of Petitions




  Source: OIG analysis of NHTSA information.


Individual processing times ranged from as few as 63 calendar days to as many as
578 calendar days. The range between the shortest petition processing time and
the longest petition processing time also decreased each year, from 492 days in
CY 2001 to 273 in CY 2003. As shown in Figure 2, processing delays were the
most pronounced in CY 2001 and predominantly occurred during the first stage of
the process—accepting petitions. For example, one registered importer’s petition
for a Mercedes Benz was approved 177 days after the initial petition was filed in
January 2001 because NHTSA had lost the petition. (For more details on
processing times, see Exhibit C.)

NHTSA continued to improve its timeliness in the first 10 months of CY 2004,
processing 24 of the 26 petitions it received within 77 calendar days. The
remaining two petitions are in the final stage of approval.
                                                                                                        5




                                       Figure 2. Average Calendar Days for
                                       Processing Petitions CYs 2001-2003

                                        120                                             112
                                                100
                                        100
              Average Number of Days
                                                      91
                                                           80
                                         80

                                         60                                                   48
                                                                       37        35
                                         40                                 30                     32

                                         20

                                          0
                                                                                          Assign
                                              Accept Petitions          Publish
                                                                                         Eligibility
                                                                        Petitions
                                                                                         Numbers
                                               2001             2002             2003



          Source: OIG analysis of information from NHTSA.


Petition processing delays in CYs 2001, 2002, and 2003 were attributed to staff
shortages in the Import and Certification Division (three of seven office positions
were vacant because of a retirement, a reassignment, and an employee on military
leave) and to an extra review step by the Office of Chief Counsel before petition
information was published in the Federal Register. In CY 2003, NHTSA made
changes in management staff, shifted other staff to assist in processing petitions
and moved the legal review from the Office of the Chief Counsel to the Chief of
the Import and Certification Division. As a result, average processing times fell
from 249 calendar days in CY 2001 to 147 calendar days in CY 2003, despite an
increase in the number of petitions filed.

We also identified eight petitions (or about 11 percent) processed during
CYs 2001 to 2003 that were delayed for reasons that were beyond NHTSA’s
control. For example, after NHTSA asked one registered importer for additional
information about its petition, that importer took 5 months to respond with the
information. When an eligibility number was ultimately assigned, 376 days had
elapsed from the end of the comment period to the assignment of the eligibility
number. Seven other petitions were delayed by a manufacturer’s request for an
                                                                                  6


extension of the 30-day comment period following the publishing of the Federal
Register notice. NHTSA extended the comment period for these 73 petitions by
10 to 51 calendar days because vehicle manufacturers requested additional time to
respond. Four of the seven requests to extend the comment period were from one
automobile manufacturer (Ferrari) that was opposed to the importation of its
vehicles, except through authorized dealers in the United States.

Our analysis of the petition processing times showed that the make of the vehicle
on the petition, the fact that it was a luxury or non-luxury vehicle, and the number
of vehicles eventually imported under each approved petition’s eligibility number
did not tend to affect how long NHTSA took to process a petition. As noted
previously, however, petition processing times for Ferraris were skewed by the
manufacturer's actions in opposition to allowing the importation of Ferraris except
through authorized dealers.

We also found that the key to further progress in reducing petition processing
delays is improving the agency’s computer database so that the data are more
reliable and staff can better monitor delayed petitions. The status of petitions is
recorded in NHTSA’s Motor Vehicle Importation Information System. The
system tracks the date that NHTSA received the petition, published a notice of the
petition in the Federal Register, and assigns an eligibility number to vehicles
covered by the petition. We tested the reliability of information recorded in
NHTSA’s system and found the data to be accurate with the exception of the
petition receipt dates. We found that 69 (95 percent) of the 73 petition receipt
dates reflected the dates that the petitions were entered into the system instead of
the dates that they were received. Using the dates NHTSA received the petitions
yielded processing times 15 to 22 days longer than those recorded in the system.

Further, we found that the Motor Vehicle Importation Information System does
not identify those petitions that are held in suspense for further information from
the registered importer or for an extension of the comment period. As a result,
NHTSA could not use the system to identify all processing delays or to
consistently inform the registered importer of the petition processing status. In
fiscal year 2004 NHTSA began making changes to the vehicle importation
information system and is preparing monthly management reports that identify the
status of all petitions.

Finally, NHTSA has no established procedures for informing vehicle owners of
the progress of a petition or conformity package through the approval processes.
At present, all communication is directed to the registered importer, unless the
vehicle owner contacts NHTSA with an inquiry. This lack of communication with
the ultimate consumer can and has caused customer satisfaction issues for
NHTSA. For example, the lack of available information on delays in the petition
                                                                                  7


approval process led to a complaint from the owner of one vehicle. That vehicle
and one other from the same manufacturer had been placed on a single petition by
the registered importer. The manufacturer’s objections and comments on one
vehicle delayed the approval of both. As a result, the vehicle owner complained to
NHTSA of the registered importer’s delay. A mechanism making the petition
status information available on a searchable Web site would better serve the
vehicle owner and the registered importer as well.

Other customer-centric agencies within the Federal Government have overcome
similar problems by enabling relevant parties to “see” the status of their petitions
on a Web site. NHTSA already has some non-confidential information regarding
petitions (already available in public documents) posted on DOT’s Docket
Management System (DMS) Web site (http://dms.dot.gov/). However the
documents identify only the registered importer, not the owner of the vehicle. In
addition, they do not show whether consideration of the petition has been delayed.
The status of a petition is not available on the DMS Web site unless NHTSA has
granted or denied the petition.


RECOMMENDATIONS
We recommend that the National Highway Traffic Safety Administrator:

1. Ensure that petition receipt dates are properly recorded in the Motor Vehicle
   Importation Information System.

2. Ensure management reports show the actual processing time for each step of
   the petition process, and note how these times compare to NHTSA standards.

3. Modify the Motor Vehicle Importation Information System to include fields
   that flag a petition that is being held in suspense and note the reason for the
   suspension, to call delayed petitions to the attention of NHTSA staff.

4. Consider developing a customer-centric mechanism in line with the President’s
   E-Government Initiative—such as a searchable Web site application listing the
   status of petitions—to ensure that the information regarding a petition being
   held in suspense is available to both the registered importer and the vehicle
   owner.
                                                                                  8


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided NHTSA a draft of this report on February 14, 2005. In its
comments, provided on February 18, 2005, NHTSA concurred with the
recommendations and identified actions taken or planned for each of the
recommendations.

Specifically, regarding recommendation 1, NHTSA has taken actions to ensure
that petition receipt dates are properly recorded in the Motor Vehicle Importation
Information System. In response to recommendation 2, NHTSA will establish and
implement time standards for each step of the petition process no later than June 1,
2005. Further, during our review, NHTSA updated the Motor Vehicle Importation
Information System with fields that flag petitions held in suspense and provide a
reason for the suspense action.            This action satisfies the intent of
recommendation 3. In response to recommendation 4, rather than developing a
searchable Web site, NHTSA proposed (a) developing an Import Eligibility
Petition Status report by March 2005, (b) creating a Web page on its Vehicle
Importation Information Web site by the end of May 2005 that displays the status
report, and (c) in June 2005, NHTSA will issue a newsletter notifying all
registered importers of the Import Eligibility Status Report and its location on the
NHTSA Web site. We consider this action responsive.

NHTSA provided additional comments concerning U.S. military personnel’s
purchase of nonconforming motor vehicles overseas, as well as technical
comments on the draft report. We incorporated those comments into this final
report, as appropriate. The full text of NHTSA’s comments are in the Appendix.
NHTSA’s comments included attachments that will be available upon request.

ACTION REQUIRED
We appreciate the courtesies and cooperation of National Highway Traffic Safety
Administration staff during this audit. The actions taken and planned by NHTSA
are reasonable and subject to the follow-up requirements of DOT Order 8000.1C.
If you have any questions concerning this report, please call me at (202) 366-2017.

                                         #

cc: The Secretary
    Deputy Secretary
                                                                                     9



EXHIBIT A. SCOPE AND METHODOLOGY
To address the objectives, we reviewed NHTSA’s process for reviewing petitions;
interviewed NHTSA personnel; evaluated the accuracy of information in the
Motor Vehicle Importation Information System; and reviewed petition files,
correspondence, and additional documentation to determine the reasons for delays
in approving petitions. We reviewed 73 petitions filed during CYs 2001 through
2003 for 4,041 non-Canadian vehicles and computed the average calendar day
processing times for each step of NHTSA’s process and the range of processing
days. Of the 73 petitions, 16 were filed in CY 2001, 29 in CY 2002, and 28 in CY
2003. We also computed processing times for the 26 petitions filed between
January 1 and August 31, 2004.

We also assessed the reliability of the Motor Vehicle Importation Information
System by tracing all 73 petitions in the database to petition files to (1) ensure that
all petitions were in the database, and (2) determine whether the petition dates
were accurately entered into the system. Because the petition receipt dates were
not accurately recorded in the management information system, we calculated
processing times using the dates noted on the petitions. We also relied on
information in NHTSA’s petition files to determine when eligibility numbers were
assigned because before March 2003, NHTSA did not provide written notification
to registered importers when their petitions were approved.

We conducted the audit from February through October 2004, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States. The audit included tests of internal controls, as were considered
necessary.




Exhibit A. Scope and Methodology
                                                                        10


EXHIBIT B. TYPES OF VEHICLES



               Table 1. Types of Vehicles Petitioned for Import
                         CY 2001 through CY 2003
       Vehicle Make              Vehicle Model              Petitions
                                                           Processed
       Audi                TT, A4, S4, RS4, A8, S8, S6          4
       BMW                    R1100, 3/5 Series, Z8,            4
                                   850 Series
       Ferrari              360,550,F355,456,360,575            7
       Harley Davidson         FX,FL,XL,VRSCA                    6
       Jaguar                        S-Type                      1
       Lamborghini            Diablo, Diablo Coupe              2
       Mercedes Benz      500,600,SL,CL,CLK,SLK,S,V            14
                                        ,E
       Porsche                    GT2, Boxster                   3
       Other autos                                             18
       Other motorcycles                                       14
       Total                                                   73
       Source: NHTSA




Exhibit B. Types of Vehicles
                                                         11




                        Table 2. Types and Number of
                                   Vehicles
                            in Conformity Packages
                       Approved May 2003-August 2004
                      Vehicle Make          Number of
                                              vehicles
                      Harley-Davidson           165
                      Mercedes Benz              98
                      Ferrari                    59
                      BMW                        41
                      Porsche                    20
                      Other motorcycles           9
                      Audi                       7
                      Nissan                      4
                      Jaguar                     3
                      Jeep                        3
                      Volkswagen                 3
                      Chevrolet                   2
                      Ford                       2
                      Toyota                      2
                      Aston Martin                1
                      Honda                      1
                      Lamborghini                1
                      Land Rover                 1
                      Lexus                      1
                      Rolls Royce                1
                      Saab                       1
                      Total                     425
                     Source: NHTSA




Exhibit B. Types of Vehicles
                                                                                           12




EXHIBIT C. PETITION PROCESSING TIMES




                        Table 1. Timeliness in Processing Petitions
                                CY 2001 through CY 2004
                                      Total                         90 to       Over
                   Calendar         Petitions  Under                 120        120
                    Year            Processed 90 days               days        days
                     2001              16         1                    3         12
                     2002              29         2                   10         17
                     2003              28         8                    6         14
                     2004              26*       19                    4          1
                    Total              99        30                  23          44
                  Source: OIG analysis of information from NHTSA.
                  *2004 data represent petitions received January through August. Two of
                   these petitions are still being processed.




                 Table 2. Range of Calendar Days to Process Petitions
                                    Minimum to Maximum Number of Days
                                                          Resolve
                                                        Comments,     Total for
                                                           Assign      Entire
Calendar        Number of      Accept       Publish      Eligibility   Petition
 Year            Petitions    Petitions     Petitions    Numbers       Process
  2001              16        50 to 177     30 to 81      1 to 442    86 to 578
  2002              29        43 to 249     30 to 33      0 to 420    85 to 529
  2003              28        25 to 179     30 to 79      1 to 203    63 to 336
 Total              73        25 to 249     30 to 81      0 to 442    63 to 578

Source: OIG analysis of information from NHTSA.




Exhibit C. Petition Processing Times
                                                                        13




EXHIBIT D: MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


Kurt Hyde                         Deputy Assistant Inspector General for
                                  Surface and Maritime Programs

Paulette Heggins-Carter           Project Manager

Marvin Tuxhorn                    Senior Auditor

Harriet Lambert                   Editor

Clayton Boyce                     Strategic Communications Consultant




Exhibit D. Major Contributors to This Report
                                14


APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                15




Appendix. Management Comments
